No. 20-827
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES v. HUSAYN, ET AL.
____________
Certificate of Service
I hereby certify that on January 6, 2021, I caused the foregoing RESPONDENTS’ FIRST
REQUEST FOR EXTENSION OF TIME TO RESPOND TO PETITION FOR CERTIORARI to
be served upon all individuals required to be served in this proceeding, at the addresses listed
below. Service was made via both email and first-class mail.
Service List:
Anthony Yang
Assistant Solicitor General
U.S. Department of Justice
950 Pennsylvania Ave., NW, Room 5635
Washington, DC 20530
anthony.yang@doj.gov
Counsel for Petitioner the United States
Christopher Tompkins
Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101
ctompkins@bpmlaw.com
Counsel for the Respondents in the District Court,
James Elmer Mitchell and Bruce Jessen

/s/ John Chamberlain
John Chamberlain

